Supreme Court, U.S.
FILED

No. 20-

AUG 2 8 2020

3>87

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

lewana Howard
Petitioner
vs.
Gabriel Defrates, et al
Respondents
On Petition for a Writ of Certiorari to
The United State Court of Appeals
For the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI

Lewana Howard
Petitioner, Pro Se
7303 S. Marshfield Ave.
Chicago, IL 60636
(773) 737-1896
lewana@sbcalobal.net

I. Question Presented
(1) When state employees acting in their personal
capacity rather than agents of the state, violate the
14,h Amendment Equal Protection rights of a citizen
who is a member of a protected group established
under the Age Discrimination and Title VII Retaliation
laws, can the civil action 42 U.S.C. 1983 be used as a
private remedy in federal court for violation of their 14,h
Amendment Equal Protection Clause right?

i

III. Table of Contents
I.

Questions Presented

II.

Table of Contents

III.

Table of Authorities

—IV-— Petition for Writ of Certiorari

iii
1-

V.

Opinion Below

1

VI.

Jurisdiction......

1

VII.

Constitutional and Federal Laws

VIII.

Statement of the Case
1) IDHR Complaints and Lack of Substantial
Evidence Findings.....................................

.2-3
,4-11
4-8

2) Direct Appeal........................................... .9-11
IX.

Reason for Granting the Writ........................ 12-15

A). To avoid erroneous deprivation of
constitutional rights, “under the color of law". This court
should clarify the application of the civil action 42
U.S.C. 1983 when state employees acting in their
personal capacity rather than agents of the state
during a neutral fact finding investigation violate the
14,h Amendment Equal Protection Clause.
X.

Conclusion

XI.

Certificate of Compliance & Service

16
17-19

III. Table of Authorities
Cases
Federal Court Injunction Cooper v. Salazar #98 C 2930
3,6
N.D. III., (11-1-2001), P.26, Para 1
Goulding v. Osceola Gold, Inc. No 16 C 4860 N.D. III.
(2-21-2017)
8
Monroe v. Pape 365 Y.S. 167 (1961)........3,4,10,11,12
White v. Trew, N.C. 736 $.E.2d of 168169 (2013) quoting
dicta in Mullis v. Sechrest 347 N.C. 548, 495 S.E. 2d 721,
1
(1998)
Statutes
1

28 USC 1257
Constitutional Provision
United States Constitution Amendment XIV

....2

Federal Laws
Age Discrimination Act of 1967

2

Title VII Retaliation....................

2

Federal Court Injunction
Cooper v. Salazar #98 C 2930 N.D. III.,
(11-1-2001)............................... ................

iii

3

IV. Petition for Writ of Certiorari
Lewana Howard, a Pro Se Petitioner for the
Northern District of Illinois, respectfully petition this court
for a Writ of Certiorari to review the judgment of the U.S.
Court of Appeals for the Seventh Circuit.

V. Opinion Below
The decision by the U.S. Court of Appeals for the
Seventh Circuit affirming the District Court dismissal of
Howard’s Second Amended complaint was decided
on July 1,2020. That order is attached at Appendix A
dated July 1,2020.

VUurisdiction
Lewana Howard invokes this court’s jurisdiction
under 28 USC 1257, having timely filed this petition for a
writ of Certiorari within 90 days of the U.S. Court of
Appeals for the Seventh Circuit Order.

1.

VII Constitutional Provision Involved
United States Constitution, Amendment XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States, nor shall any state deprive
any person of life liberty or property without due
process of law nor deny to any person within the
jurisdiction the equal protection of the laws.
Federal Laws
Age Discrimination Act of 1967
The Age Discrimination in Employment Act of
1967 is a US labor law that forbids employment
discrimination against anyone at least 40 years of age
in the United States. The ADEA prevents age
discrimination and provides equal employment
opportunity under conditions that were not explicitly
covered in Title VII of the Civil Rights Act of 1964.
Title VII Retaliation
Title VII protects employees who report or bear
witness to discriminatory conduct. More specifically,
employers cannot retaliate by taking disciplinary action
against employees for making discrimination charges,
making a statement to the EEOC or administrative
agency, or giving testimony in a discrimination case.
2.

Cooper v. Salazar Injunction
IDHR Credibility Notice
The Illinois Department of Human Rights IDHR is
under a federal-court injunction that among other
things, orders the IDHR:
'To cease permanently from relying on credibility
determinations made without affording the rights of
confrontation and cross-examination'. The order is
dated November 1, 2001 at p. 26 P. 1 (2nd Amended
Complaint, Exhibit 5).

3.

VIII. Statement of the Case
Over 50 years ago, the Supreme Court held in
Monroe v. Pape 365, US 167, (1961) that the civil action
42 USC 1983 a statutory provision from 1871 could be
applied to sue municipal employees in their personal
capacity. The Plaintiff believed their civil rights had
been violated and sued for a private remedy based on
the violation of their constitutional rights. 42 USC 1983
was a relatively obscure and little used statute, but
since Monroe v. Pape has become a central part of
the United States civil rights law.
In Monroe v. Pape the Supreme Court held
individuals acting "under the color of law" can be sued
under 42 USC 1983 as a federal remedy and the
federal remedy was supplementary to any state
remedy and the latter need not have been first sought
and refused before the federal one was invoked.
4.

This case presents the question of whether the
civil action 42 USC 1983 a statutory provision from 1871
is satisfied when state employees acting in their
"personal capacity,” rather than agents of the state
violate the constitutional rights of an individual during a
neutral fact finding investigative process. "White v.
Trew, N.C. 736 S.E. 2d of 168-169 {2013 quoting dicta in
Mullis v. Sechrest 347 N.C. 548, 495 S.E. 2d 721 (1998).
Howard was seeking punitive and compensatory
damages.
1. Filing of IDHR Complaints and Lack of Substantial
Evidence Findings
In the year of 2015, Lewana Howard filed 2
complaints with the Illinois Department of Human Rights.
The 1st complaint was filed in June of 2015 alleging age
discrimination by a CVS pharmacy manager. The 2nd
5.

complaint was filed in September 2015 for retaliation
after being terminated by the same CVS pharmacy
manager. Howard at the time of filing both complaints
was in a federally protected class.
In the year of 2016 both of Howard's complaints
were assigned to a 2nd investigator Defrays. Because of
a professional misconduct complaint filed by Howard
regarding the 1st investigator both IDHR complaints
were reassigned to Defratfc., (2nd Amended Complaint,
Exhibit 1). Howard received a Lack of Substantial
Evidence Finding for both the Age Discrimination and
Title VII Retaliation IDHR complaints investigated by
Defratis. Because Defratfc is employed by a state
agency that investigates individual civil rights
complaints against employers. It can be inferred

6.

Defratts is familiar with the 14th Amendment Equal
Protection Clause, the Age Discrimination Act, Title VII
Retaliation, IDHR procedures and requirements, the
federal injunction Cooper v. Salazar and that malicious
deliberate indifference is not characteristic of a neutral
fact finding investigation. During the 5/4/2016 fact
finding conference Defratfe demonstrated malicious
deliberate indifference when inquiring about what the
employment status of the Respondent would be if she
was found guilty of the complaints filed against her?
The Employee Relations Manager who attended the
conference via telephone responded “she would be
terminated”, (2nd Amended Complaint dated 6/17/19,
pg. 3. #11 and Exhibit 4).
7.

Defratfe supervisors Williams and Glenn reviewed
and signed off on both of the Lack of Substantial
Evidence Findings issued by Defratte, (Plaintiff
Opposition to Defendants Motion to Dismiss (dated ..
10/31/2018, Exhibit G ). Both Williams and Glenn had
the authority to overrule Defratfc findings. Williams was
the Supervisor of Defraffc and Glenn at the time was the
Acting Director of the IDHR agency.
Howard was originally advised by the district
court to seek legal advice from the Northern District of
Illinois Hibbler Memorial Pro Se Assistance Program.
Because Howard accepted the legal advice received
from the Pro Se Assistance Program a court appointed
lawyer was refused when offered by the court at a later
date.
8.

The district court granted the Defendant’s motion
to dismiss the 2nd Amended Complaint for failing to
state a claim. (Appendix B dated May 21,2019).
In deciding, Goulding v. Osceola Gold, Inc. No
16C 4890 (N.D. III., decided 2/21/2017) “failing to state a
claim'' was denied by the district court citing Rule 12(f)
of the Federal Rule of Civil Procedure that authorizes a
trial court to "strike from a pleading an insufficient
defense or any redundant, immaterial, impertinent or
scandalous matter, (page 1, para 1)."
2. Direct Appeal
On Direct Appeal, Howard renewed her
concern that her 14,h Amendment under the Equal
Protection Clause had been violated. In a published
opinion the US District Court of Appeals for the Seventh
Circuit wrote that even if "Howard allegations in the
9.

complaint were true she failed to state a claim under
the Due Process Clause or Equal Protection Clause".
The US District Court of Appeals affirmed the district
court order of failing to state a claim.
Howard reasons the Equal Protection Clause
takes precedence during a Illinois Department of
Human Rights complaint investigation and not due
process because during the investigation Howard was
in a protected class as defined under the Age
Discrimination Act of 1967 and Title VII Retaliation, (2nd
Amended Complaint, Pg. 2, Para 1-3). Also, the U.S.
District Court of Appeals for the 7lh Circuit in its order
stated regarding due process: "Howard then had the
option of seeking review with the Illinois Human Rights
Commission (the adjudicatory arm) or bring an action
10.

in Illinois Circuit Court", (Appendix A. pg. 2, para 1).
The US District Court of Appeals stated "to the
extent that proper procedures were overlooked, the
court concluded that Howard’s allegation did not
plausibly suggest anything beyond negligence, which
did not rise to the level of a federal constitutional
claim", (Appendix A, pg. 2, para 3).
Stated on the IDHR website: www2illinois.gov
under the IDHR Fairness Equality Campaign heading,
v

"IDHR promotes fairness and equality."
A petition for a rehearing en banc was not
submitted to the U.S. Court of Appeals for the Seventh
Circuit.

11.

IX. Reason For Granting the Writ
A. To avoid erroneous deprivation of
constitutional rights, "under the color of law". This court
should clarify the application of the civil action 42 USC
1983 that applies when state employees acting in their
personal capacity rather than agents of the state
during a neutral fact finding investigation violate a
civil right established by the 14,h Amendment Equal
Protection Clause.
Justice Douglas in delivering the Monroe v. Pape
opinion of the US Supreme Court stated:
This case presents important questions
concerning the construction of 42 USC 1983, which
reads as follows:

12.

"Every person who, under the color of any
statute, ordinance, regulation, custom or usage, of any
state or territory, subjects or causes to be subjected,
any (365 US 167,169) citizen of the United States or
other person within the jurisdiction thereof to be
deprived of any rights, privileges or immunities secured
by the constitution and laws shall be liable to the party
injured in an action at law, suit in equity or other proper
proceeding for redress."
The complaint alleges during an IDHR
investigation of two civil rights complaints against an
employee of CVS Pharmacy. Defratte acted with
deliberate indifference that was malicious towards
Howard, during the 5/4/2016 fact finding conference.
Defratte, et al ignored Howard’s 14,h Amendment Equal
Protection Clause rights, a permanent federal court
injunction and IDHR procedures and requirements that
caused a violation of Howard’s protected class
constitutional rights. The actions of Defratte, et al
13.

resulted in a lack of substantial evidence findings for
both IDHR complaints.
The US District Court of Appeals for the Seventh
Circuit erroneous decision circumvents the premise of
42 USC 1983, discouraging the use of a federal civil
action remedy. More or less permitting IDHR employees
to be negligent in their investigative process, embrace
individualized assessment procedures rather than
adhere to constitutional laws, disregard a permanent
federal injunction, dismiss IDHR policy and requirements
and/or commit to a neutral fact finding investigation.
This case presents the US Supreme Court with an
opportunity to further clarify 42 U.S.C. 1983 “civil action"
standard when it applies to the Equal Protection Clause
in the face of deprivation of rights under the color of
14.

law by state employees acting in their own capacity
rather than as agents ot the state. The purpose of the
civil act is to provide a private remedy for violations of
federal laws. Section 1983 is not, and of itself, a source
of substantive rights. It provides a method for the
resolution of rights already conferred in the U. S.
Constitution and federal Laws. Absent intervention by
this court, the US District Court of Appeals for the
Seventh Circuit published decision will work to
undermine the civil action for Deprivation of Rights Act.

15.

X. Conclusion
For the foregoing reasons, Lewana Howard
respectfully request that this court issue a writ of
Certiorari to review the order of the U.S. Court of
Appeals for the Seventh Circuit.

Dated: <2>- 2.8-2o72)

Respectfully Submitted,

J d-JD

Lewana Howard
Petitioner, Pro Sea
7303 S. Marshfield Ave.
Chicago, IL 60636
(773) 737-1896
lewana@sbcalobal.net

16.

